<html>
<title> - PRESIDENT'S PROPOSED FISCAL YEAR 2012 BUDGET FOR THE ARMY CORPS OF ENGINEERS</title>
<body><pre>[Senate Hearing 112-830]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-830
 
  PRESIDENT'S PROPOSED FISCAL YEAR 2012 BUDGET FOR THE ARMY CORPS OF 
                               ENGINEERS 

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works

       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

85-235 PDF                       WASHINGTON : 2014 

  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
        DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

           Subcommittee on Transportation and Infrastructure

                     MAX BAUCUS, Montana, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTRENBERG, New Jersey     JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 31, 2011
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     2
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......     3
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     6
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................    48

                               WITNESSES

Darcy, Hon. Jo-Ellen, Assistant Secretary of the Army (Civil 
  Works).........................................................     7
    Prepared statement...........................................    10
        Charts:
            FY 2012 Budget, Business Line/Account Cross-Walk ($ 
              Millions)..........................................    18
            FY 12 Priority Ecosystems Funding....................    19
Van Anwerp, Lieutenant General Robert, Chief of Engineers, U.S. 
  Army Corps of Engineers........................................    20
    Prepared statement...........................................    22


  PRESIDENT'S PROPOSED FISCAL YEAR 2012 BUDGET FOR THE ARMY CORPS OF 
                               ENGINEERS

                              ----------                              


                        THURSDAY, MARCH 31, 2011

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room 406, Dirksen Senate Office Building, the Hon. Max Baucus 
(chairman of the subcommittee) presiding.
    Present: Senators Baucus, Vitter, Inhofe, Cardin, 
Whitehouse, Barrasso, Boozman.

 STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE STATE OF 
                            MONTANA

    Senator Baucus. The hearing will come to order.
    First, I deeply apologize for the delay. I like to be on 
time. Former President of Colombia Uribe stopped by. In short, 
I frankly strongly favor this proposed Colombia free trade 
agreement. He and I were talking, and there just aren't enough 
minutes in the day. I apologize for the delay.
    Good afternoon, everyone. Welcome to this hearing of the 
Transportation and Infrastructure Subcommittee on the 
President's proposed Fiscal Year 2012 budget for the U.S. Army 
Corps of Engineers Civil Works program.
    James Michener said, ``Scientists dream about doing great 
things. Engineers do them.'' Originally established in 1776 by 
the Continental Congress, and remaining in continuous existence 
since 1802, the U.S. Army Corps of Engineers is vital to our 
country's national defense, our economy, flood control, 
environmental protection and outdoor recreation. The Corps 
proved its value early on in preparation for the War of 1812, 
when it built fortifications to repel the British Navy. An 11-
pointed fort in New York harbor from this time eventually 
became the home for the Statue of Liberty.
    Since then, the Corps has served this Nation admirably 
through its military ventures, counting Robert E. Lee and 
Douglas MacArthur, and many other great men and women among its 
staff. Over time, the Corps has also significantly expanded its 
civil works efforts. Today, the Corps of Engineers is composed 
of more than 34,000 civilian and military personnel. It is the 
largest public engineering design and constructing management 
facility in the world. It oversees more than 12,000 miles of 
navigable channels.
    A clear majority of all the goods that Americans use pass 
through ports that the Corps maintains. The Corps provides 24 
percent of our hydropower capacity. It inspects more than 2,000 
levies on a biannual basis, provides an estimated 4 billion 
gallons of water from its various facilities, also on a daily 
basis. It provides shore protection against storm damage, and 
it entertains more than 25 million Americans, that is 10 
percent of our population, at thousands of outdoor recreation 
sites nationwide, including several in both Fort Peck and 
Libby, MT.
    The President's Fiscal Year 2012 budget request for the 
Corps of Engineers Civil Works program is $4.631 billion. This 
marks nearly a 15 percent decline from the Fiscal Year 2010 
enacted level of $5.45 billion.
    Today, we are fortunate to have two outstanding witnesses 
to discuss the President's proposed budget. Lieutenant General 
Robert Van Antwerp is the 52d Chief of the Engineers, Commander 
of the U.S. Army Corps of Engineers. A 1972 graduate of West 
Point, with several graduate degrees, and a vast wealth of 
experience, and we are honored by his service and glad to have 
him today.
    Next, Assistant Secretary of Army, Civil Works, Jo-Ellen 
Darcy, obviously recognizable face and long-time friend. She is 
the highest ranking civilian in the Corps of Engineers. She is 
a die-hard Red Sox fan and a graduate of both Boston College 
and Michigan State University. She also previously worked for 
this committee and for the Finance Committee during her tenure 
in the U.S. Senate. Thank you, Secretary Darcy.
    The Corps of Engineers has estimated that every $1 billion 
in Federal investment in water resources projects creates 
approximately 26,000 jobs. I said before, we must shrink 
Federal spending. But I also believe we must be surgical about 
where to cut. I favor aggressive cuts coupled with smart 
investments. The agenda has to be jobs, jobs and jobs. We can't 
treat the deficit by shrinking the economy.
    So I am eager to hear what our witnesses have to say about 
more than $800 million in proposed cuts, among other things. 
Now I would like to recognize other Senators for opening 
statements. I will begin with Senator Vitter.

STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE STATE OF 
                           LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman. Thanks to our two 
witnesses. Thanks for all of your work, and thanks to all the 
fine men and women of the Corps for all of their work.
    The Chairman mentioned some significant history, some going 
back to the 18th century. Of course, the history I am much more 
focused on, for obvious reasons, is very recent history, 
particularly Katrina. While there were many low points and high 
points in that episode, let me dwell on the work of the Corps 
since then, which is absolutely essential for the very 
survival, much less the prosperity, of most of my State.
    With that in mind, and as I thank you for the work of the 
Corps' men and women, I am very concerned about some real gaps 
in that work and some real continuing needs in that work post-
Katrina. As both of you know, I sent a letter addressed to both 
of you this week, highlighting several of those very precise 
concerns. I am not going to dwell on all aspects of that letter 
here. I do want to followup on all of those concerns as we move 
forward to any nomination of your successor, General. Those 
concerns are very deep-seated and very important to all 
Louisianans, including me.
    But with that, I will look forward to your testimony, and 
highlight some of those top concerns in my questions.
    Senator Baucus. Thank you, Senator.
    Other opening statements? Senator Udall.

STATEMENT OF HON. TOM UDALL, U.S. SENATOR FROM THE STATE OF NEW 
                             MEXICO

    Senator Udall. Thank you, Senator Baucus, very much. Thank 
you for holding this important hearing.
    Water infrastructure is of supreme importance in the 
American west, where water is scarce, and when it does come, it 
can cause destructive flooding. We need to manage our water 
resources in an integrated fashion for multiple uses, 
agricultural, municipal, commercial and conserving the 
environment. Human civilization was founded alongside healthy 
rivers, lakes and estuaries. To continue to thrive, we must 
conserve them, not let them go to waste.
    In the west, we hope to see the Corps of Engineers work in 
coordination with other western water agencies, including on 
the State and local level, to maintain the quality of life 
Americans deserve in the west. Today's hearing focuses on the 
Corps' 2012 budget, which is a cause for concern. We have six 
Army Corps projects in New Mexico which are in the construction 
phase, but only one of them appears in the President's budget. 
While flood control cuts may appear to save small amounts of 
funding today, they simply increase the cost from future 
flooding. The National Flood Insurance Program is backstopped 
by the Federal Government.
    We are not the only State that is facing an uphill battle 
on flood control funding. But as a rural State, I think that 
sometimes we get penalized by the cost benefit analysis that 
the Corps and the Office of Management and Budget apply. That 
is one of the reasons why I disagree with the current policies 
in Congress to eliminate Congress' role in setting regional 
funding priorities. Without congressional input, funding 
decisions are made by individuals who may have never been to 
the areas where they are sending or blocking funding. Until 
Congress reassumes its responsibilities, the Administration 
must take great care when crafting budgets like the Corps' 
which involve regional issues.
    With that, let me just mention a couple of issues of 
concern. I hope I am here for the questions, but if not, I will 
submit these questions. One is that we have the Rio Grande, 
which I consider one of our high priority ecosystems, and I 
hope you do too. In 2007, Congress authorized the Rio Grande 
Environmental Management Program to provide a forum to plan for 
integrated water management and fund ecosystem restoration. But 
neither this Administration nor the previous one included it in 
their budgets. So there is a question there as to what kind of 
support you have for that, in light of that legislation.
    The Corps' budget document includes language about 
nationally significant ecosystems. I believe the Rio Grande is 
a nationally significant ecosystem. But is that an official 
designation process or something more informal?
    A third issue is this issue of levees and how irrigation 
districts in New Mexico are concerned about levees and whether 
or not they will be included under the new Federal levee safety 
standards, when they may not really be used for that purpose. I 
have a question there.
    Then one of the most popular Corps programs in New Mexico 
is the acequias irrigation system. Acequias were first built by 
the early settlers and has been used for irrigation for 
centuries. I believe Assistant Secretary Darcy attended a 
recent event in New Mexico at an acequia project. We understand 
this unique asset does not quite fit in the Corps' traditional 
mission areas. This historical cultural waterways are an asset 
and are deserving of support. I am hoping you will work with us 
to find ways to support this project.
    Finally, the Southwest Valley Project in Albuquerque area 
has been funded with over $7 million in past years and needs 
only $5 million more to be completed and removed from the list 
of outstanding projects. Unfortunately, it was not included in 
the budget. Does the Corps put a priority on closing out 
projects in its budget decisionmaking and will the Corps take 
another look at completing this project?
    With that, I very much appreciate your both being here, and 
I hope to follow carefully your answers and the questioning.
    Thank you, Chairman Baucus.
    Senator Baucus. Thank you very much.
    I will now turn to the Ranking Member of the full 
committee, Senator Inhofe.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you. First of all, I am glad to have 
both of you here. There are not two people I respect more than 
the two of you. Every time I see you, Secretary Darcy, I think 
of you really up here and not down there. Even though the 
purpose of this hearing is not to get into the WRDA bill, I 
can't think of anyone I would rather have in your capacity 
today than someone with your background and your history of 
cooperation and interest in those very important projects.
    While we are anxious to get into a WRDA thing, we know that 
is not the reason for this hearing right here. But I would like 
to say this. People have commented sometimes about Senator 
Boxer and myself, being the Chairman and Ranking Member of the 
whole committee, and being of just totally different philosophy 
generally. But we on infrastructure are very much the same. I 
would say I am not too unlike a lot of other people. I have had 
the ranking of being the most conservative member.
    But there are some areas, like national defense and 
infrastructure, those are the two top things that we are 
supposed to be doing here. We need to be doing a better job. 
Not your fault, but our fault, not being able to prioritize 
where the funds are coming from.
    Now, we have a lot of water resource needs around the 
country. But we aren't dedicating the necessary funds. If you 
look at the navigation infrastructure, which is essential to 
ensuring our movement of goods, more than 50 percent of the 
locks and dams operated by the Corps are over 50 years old.
    While I am concerned about the Harbor Maintenance Trust 
Fund, I am also concerned about the Inland Waterways Trust 
Fund. Because that affects me. A lot of people are not aware of 
the fact that, I think we in Oklahoma are the most inland port. 
We have the port of Catoosa, right outside my home town of 
Tulsa. It is one that has some really truly great needs.
    For example, we are right now, it has been a real success 
story in moving goods and services, wheat and other things back 
and forth. Our problem is this, and we have been talking about 
this 12-foot channel now for years and years and years, as long 
as I have been up here. It does have 485 miles of channel. Of 
that, 90 percent is 12 feet, but only 10 percent is 9 feet. For 
99 and 1 percent, it still is a 9-foot channel.
    So that is something that I have, and I just want to make 
sure that we register at this meeting, a real top concern for 
it. Another one that we have is on the Red River project, the 
irrigation district. The chloride control is something that has 
been very, very valuable to southwestern Oklahoma. We have some 
challenges there.
    Then of course, we have talked about the Arkansas River 
Corridor Master Plan. The amount of money that has been 
authorized there is in three categories that are perfectly 
reasonable in terms of what should be funded and what should 
not. It is the ecosystems, flood damage, reduction and 
recreation components to the plan. So I wanted to get on record 
here that we have the cooperation of the city Council, our COG, 
our council of governments, everyone lined up, ready to meet 
whatever requirements are necessary to make that a reality.
    Finally, we have had, on the demonstration projects, and I 
think we could be somewhat of a model for the country, because 
we have done it successfully. We, and I think Georgia did the 
first two of the demonstration projects on lakes. Ours was a 
successful one, it was Lake Skiatook. We have another one that 
you and I have talked about, and you follow. I will have a 
couple of questions about that at question and answer time.
    Everyone at this table and everyone in the Senate has their 
own concerns. We need to do a better job of meeting those 
concerns. We know the constraints of the Corps and what you are 
under. Nonetheless, we want to work with you to try to make 
these things happen.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Thank you, Chairman Baucus, for holding this hearing and thank you, 
Secretary Darcy and General Van Antwerp for testifying before us this 
afternoon.
    Chairman Boxer has indicated her intent to draft and move a Water 
Resources Development Act (WRDA) this year. I would like to take this 
opportunity to reiterate my support for doing so. The purpose of 
today's hearing is not to discuss a WRDA bill, but to look at the 
President's fiscal year 2012 budget request for the Army Corps of 
Engineers' Civil Works program, which lays out the Administration's 
priorities for investing in water resources infrastructure. I have to 
say that I was disappointed to see that this request was not only a 
decrease from fiscal year enacted levels, but that it was even a 
decrease from the fiscal year budget request.
    As a fiscal conservative, I strongly support the overall goal of 
cutting government spending, but I firmly believe that two areas worthy 
of spending taxpayer dollars are defense and infrastructure. It may not 
be as headline-grabbing as some other areas of government spending, but 
investments in infrastructure--including water resources 
infrastructure--not only have job creation benefits, but more 
importantly, are essential for economic growth.
    We have significant water resources needs across the country, but 
we aren't dedicating the funds necessary to address them. For example, 
let's look at our navigation infrastructure, which is essential to 
ensuring reliable and efficient movement of goods. More than 50 percent 
of the locks and dams operated by the Corps are over 50 years old and 
the Corps navigation budget has been cut by 22 percent over the last 5 
years. In addition, only approximately half of the annual revenue in 
the Harbor Maintenance Trust Fund is spent as intended--on critical 
maintenance dredging--while the rest is counted as offsetting the 
deficit.
    In my home State of Oklahoma, we have a very successful port that 
lies at the head of navigation for the McClellan-Kerr Arkansas River 
Navigation System, the Port of Catoosa. On average, 8,000 barges 
transport approximately 12-million tons of cargo on the system each 
year. However, the system could function much more efficiently and 
productively if it was deepened from its current 9-foot depth to the 
authorized 12 feet. Let's look at the numbers: Approximately 90 percent 
of this 445-mile system is currently at 12 feet, according to the 
Arkansas River Navigation Study. This means only 10 percent or roughly 
45 miles are at less than 12 feet. If the entire system was 12 feet 
deep, the towing industry estimates that we could increase barge 
capacity by 43 percent. This needs to be a priority.
    I'd like to briefly mention a few other items that are important to 
Oklahoma. I have been working with the Tulsa District Office and the 
local Lugert-Altus Irrigation District on chloride control at the Red 
River. These actions will provide new drinking water supplies, 
increased agricultural irrigation in the southwestern Oklahoma area, 
and improved downstream water quality.
    Another substantial priority for me is Arkansas River Corridor 
Master Plan. WRDA 2007 authorized $50 million to carry out ecosystem 
restoration, flood damage reduction, and recreation components of the 
Plan. Cooperative efforts among the Corps, Tulsa County, the city of 
Tulsa, and Indian Nations Council of Governments (INCOG) are necessary 
to implement it.
    Finally, I authored the Oklahoma Lakes Demonstration Program 
because we cannot rely on Federal funding for improvements at Corps 
lakes in Oklahoma. I believe the Corps could do a better job working 
with local governments, the State of Oklahoma, and private investors to 
make this program a success. I appreciate your receptivity to using the 
flexibility this program envisions and would like your commitment in 
conveying that flexibility throughout the Corps.
    I look forward to hearing the witnesses' testimony.

    Senator Baucus. Thank you.
    I see we are joined by Senator Barrasso, from the great 
State of Wyoming.

STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM THE STATE OF 
                            WYOMING

    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Chairman, during the last Congress, both the House and 
the Senate failed to enact the Clean Water Restoration Act 
introduced by former Senator Russ Feingold and former 
Congressman James Oberstar. This was the bill that would grant 
the Environmental Protection Agency and the U.S. Army Corps of 
Engineers virtually unlimited regulatory control over all wet 
areas within a State. This included everything from groundwater 
to ditches to prairie potholes to gutters.
    This bill trumped States' rights by preempting State and 
local governments from making local land and water use 
decisions. As you may recall, the measure was highly 
controversial. It is still strongly opposed by farmers, 
ranchers, small business owners, certainly in my home State and 
in the home States of many members of this committee. The bill 
never passed either the House of Representatives or the Senate.
    You would think that that would be the end of it. But 
apparently the Environmental Protection Agency and the U.S. 
Army Corps think differently. These agencies appear to be 
unilaterally asserting authority to enact the Clean Water 
Restoration Act without a vote from Congress. At the same time, 
they would be reversing a direct decision by the U.S. Supreme 
Court that limited the Federal Government's authority to 
regulate these waters.
    A recently leaked EPA document marked ``deliberative 
process: confidential draft'' from December 2010 states that 
the EPA and the Army Corps will identify the waters they 
believe should be under Federal jurisdiction. The document also 
spells out how their unilateral decision to do this 
``supercedes previously issued guidance on the scope of waters 
of the United States subject to Clean Water Act programs.''
    The leaked document goes further to say that the EPA and 
Army Corps expect that the number of waters found to be subject 
to the Clean Water Act jurisdiction will increase 
significantly. This draft guidance would grant the 
Environmental Protection Agency and the U.S. Army Corps of 
Engineers virtually unlimited regulatory control over all wet 
areas within a State. This guidance also trumps States' rights 
by preempting State and local governments from making local 
land and water use decisions. Enormous resources will be needed 
to expand the Clean Water Act Federal regulatory program, which 
could lead to longer permitting delays. Increased delays in 
securing permits will impede a host of economic activities 
across all 50 States. Commercial and residential real estate 
development, agriculture, electric transmission, transportation 
and mining will be affected and thousands of jobs will be lost.
    Not surprisingly, I see the Army Corps increased funding in 
its budget for its regulatory program this past year. The 
justification of the funding request is to ``implement new 
field-level initiatives for Clean Water Act jurisdictional 
determination and rulemaking and inflation.'' The American 
people rejected the Clean Water Restoration Act in the last 
Congress. It was a bad idea then, it is still a bad idea now. 
It must be stopped. Congress' authority must be restored.
    I thank you, Mr. Chairman, and I look forward to the 
testimony.
    Senator Baucus. Thank you, Senator.
    Let's begin with you, Madam Secretary.

 STATEMENT OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE 
                       ARMY (CIVIL WORKS)

    Ms. Darcy. Thank you, Mr. Chairman.
    Before I begin my statement, I would just like to say, I 
have been in this room many times over the years, and this is 
the first time in this job that I've sat at this table. Usually 
I'm sitting at this table answering questions from you all 
about legislation, but today I'm going to be able to answer 
questions about the President's budget. I just wanted to thank 
the committee for the 16 years I was part of this committee, 
and the experience that it gave me. Thank you.
    Senator Baucus. You are very welcome. You worked very well 
over here, you are going to do the same over there.
    Ms. Darcy. Mr. Chairman and distinguished Members of the 
subcommittee, thank you for the opportunity to present the 
President's Fiscal Year 2012 budget for the Civil Works program 
of the Army Corps of Engineers. I will summarize my statement 
and ask that my complete statement be included in the hearing 
record.
    The budget requests new appropriations of $4.631 billion. 
In keeping with the Administration's priority to put the Nation 
on a sustainable fiscal path, this is $836 million, or about 15 
percent, below the 2010 enacted amount of $5.445 billion. It is 
about a 6 percent decrease from the 2011 budget for the Civil 
Works program.
    The budget concentrates funding primarily on the three main 
Civil Works program areas: commercial navigation, flood and 
coastal storm damage reduction and aquatic ecosystem 
restoration. The 2012 budget continues the Army's commitment to 
a performance-based approach to budgeting in order to provide 
the best overall return from available funds and achieving 
economic, environmental and public safety objectives. The 
budget provides $50 million for a comprehensive levee safety 
initiative to help ensure that Federal levees are safe and to 
assist our non-Federal entities as they address safety issues 
with their own levees.
    The Operation and Maintenance program also includes a new 
environmental and energy sustainability program to reduce 
energy consumption at Corps projects and at Corps buildings. 
The 2012 budget places priority on collaboration with other 
Federal agencies and the development of funding allocations for 
aquatic ecosystem restoration.
    For 2012, this collaboration is reflected in five major 
ecosystems: the California Bay Delta, the Chesapeake Bay, the 
Everglades, the Great Lakes and the Gulf Coast. The budget 
provides for use of $758 million from the Harbor Maintenance 
Trust Fund to maintain coastal commercial navigation channels 
and harbors.
    The Administration plans to develop legislation to expand 
the authorized uses of the Harbor Maintenance Trust Fund, so 
that its receipts are available to finance the Federal share of 
other efforts in support of commercial navigation through the 
Nation's ports. No decisions have been made yet on what 
additional costs would be proposed to be paid from the Harbor 
Maintenance Trust Fund.
    Inland waters capital investments are funded in the budget 
at $166 million, of which $77 million is financed from the 
Inland Waterways Trust Fund. This is the total amount that is 
affordable in 2012, with the current level of revenue coming 
into the trust fund. The Administration will work with Congress 
and stakeholders to authorize a new mechanism to increase the 
revenue paid by commercial navigation users on the inland 
waterways.
    The Administration also plans to work with Congress and 
stakeholders to explore ways to support broader 
recapitalization of the Corps' aging infrastructure, 
modification of its operations, or deauthorization as 
appropriate, consistent with modern day water resources 
principles and priorities.
    Last year, President Obama established the America's Great 
Outdoors initiative to promote innovative, community-level 
efforts to conserve outdoor spaces and to reconnect Americans 
to the outdoors. The Civil Works Recreation Program is closely 
aligned with the goals of America's Great Outdoors initiative, 
and includes a variety of activities to reconnect Americans, 
especially our youth, with the Nation's outdoor resources.
    We continue to strengthen the Corps' planning expertise, 
including through greater support for planning centers of 
expertise and continued support for the development of revised 
water resources planning Principles and Guidelines. A number of 
lower priority programs and activities receive reduced or no 
funding in our 2012 budget request. For example, funding for 
maintenance of navigation harbors and waterway segments that 
support little or no commercial use is reduced by about half.
    Also, no funding is provided for small projects in several 
of the Continuing Authorities programs. The budget proposes to 
reprogram $23 million of prior year funds from these lower 
priority programs to finance ongoing phases of projects in 
higher priority Continuing Authorities programs.
    In summary, the President's 2012 budget for the Army Civil 
Works program is a performance-based budget. It supports water 
resources investments that will yield long-term returns for the 
Nation.
    Mr. Chairman and Members of the subcommittee, I look 
forward to working with you in support of the President's 
budget. If I could ask your indulgence for just one more 
minute, I would just like to say, before the Chief speaks, that 
I had the good fortune of not only getting this job, but 
walking into this job having this man sitting next to me as the 
Chief of Engineers. General Van Antwerp is going to be leaving 
the Corps in May. He is retiring from the Army. He has been a 
great partner, a great public servant, and a great tribute to 
the Army and the Army Corps of Engineers. I just want to thank 
him for his service.
    Thank you.
    [The prepared statement of Ms. Darcy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Baucus. Thank you, Madam Secretary.
    General, that is quite an introduction.

 STATEMENT OF LIEUTENANT GENERAL ROBERT VAN ANTWERP, CHIEF OF 
            ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    General Van Antwerp. Mr. Chairman, distinguished Members of 
the subcommittee, it is quite an introduction. It has been a 
great partnership, just to have someone of her stature and who 
has been over on this side; it has just been enormously helpful 
and really great for the Corps. We are a wonderful team, 
although my baseball team is different than hers.
    Senator Baucus. So which one is yours?
    General Van Antwerp. Well, actually I come from the great 
State of Michigan originally, so it has to be Detroit.
    Senator Baucus. Those Sox fans can be pretty fierce. Yours 
too?
    General Van Antwerp. A little bit of history. These castles 
that I am wearing are the MacArthur castles. They were passed 
down from his mother and father to him, and then he passed them 
to the Chief of Engineers. It goes with your wonderful 
rendition of history there.
    Senator Baucus. Thank you.
    General Van Antwerp. I am honored to testify before your 
subcommittee with Ms. Darcy today. Thank you for having us.
    This budget funds 92 construction projects, including 55 
flood and storm damage reduction projects, three of which are 
budgeted for completion, which we are proud to do this year. 
Sixteen are commercial navigation projects; nineteen aquatic 
ecosystem restoration projects; and two of these construction 
projects are new starts.
    The budget includes $104 million for activities in the 
Investigations account. It funds 58 continuing studies and 4 
new studies. Funding is also included for the Water Resources 
Priority Study, which is an evaluation of the Nation's 
vulnerability to inland and coastal flooding.
    The budget supports our continued stewardship of water-
related infrastructure. The Operation and Maintenance program 
for the Fiscal Year 2012 budget includes $2.314 billion and an 
additional $131 million under the Mississippi River and 
Tributaries program. The focus, of course, is on the 
maintenance of key commercial navigation, flood and storm 
damage reduction and hydropower facilities. As was already 
mentioned, we have 241 locks of which the average age is 58.3 
years old. They take a lot of maintenance to keep them 
operating.
    Corps teammates continue to respond whenever and wherever 
needed to help during major floods and other national 
emergencies. The budget provides $27 million for preparation 
for floods, hurricanes and other natural disasters, including 
$4 million in support of the levee safety initiative in States 
known as Silver Jackets.
    I would like to just provide a quick update on the Corps' 
preparation as we look at the potential spring flood events. We 
are working with FEMA and the National Weather Service to 
monitor the high probability of flooding in the north central 
United States, specifically the Red River of the north, the 
upper Mississippi River and the Minnesota River. Based on these 
projections, our Commanders have already requested advanced 
planning and advanced measures funding, and verified the 
ability of key flood-fighting equipment and elements. They are 
also engaging State, local and Federal authorities to discuss 
and review preparations for flood response. In a couple of 
words, we are ready, as ready as we can be.
    On the international front, I am proud to talk about the 
work on missions in Afghanistan and Iraq just for a second. 
Although it is not Civil Works, it is really important to the 
Corps and the Nation. A lot of our Civil Works employees work 
overseas in Afghanistan and Iraq and then come back to the 
Civil Works program.
    Men and women from across the Corps, all volunteers, and 
many of whom have served multiple deployments, continue to 
provide this critical support. We currently have 1,168 civilian 
employees of the Corps deployed overseas. They have completed 
over 6,000 infrastructure and water resources projects.
    Last month, Ms. Darcy and I traveled to Afghanistan. We 
took our other service counterparts over there, and we 
witnessed the amazing work of these deployed districts. We have 
one in Iraq and two in Afghanistan, and they are doing 
incredible work.
    On March 21 and March 22, we traveled down to New Orleans 
to visit the major projects of the Hurricane Storm Damage Risk 
Reduction System. We wanted to make sure that they are ready to 
defend against a 100-year event June 1. Again I will say, we 
are ready.
    So the Corps is committed to staying at the leading edge of 
service to our Nation. We are committed to change that ensures 
an open, transparent and performance-based Civil Works program. 
Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of General Van Antwerp follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Baucus. Thank you both.
    Obvious question is, how do you propose to do more with 
less? We have fewer dollars. You have a very ambitious 
schedule. To be candid, so far it is pretty vague. The 
Administration really hasn't told us how it proposes to finance 
the funds, the Inland and Harbor. It is going to be hard to 
see, for me anyway, to see how we are going to get much 
accomplished with that State of affairs.
    What is your reaction? It sounds like it is kind of brave, 
we are going to do all this with fewer dollars. Are you just 
being stoic? Are you scared? Are you being candid with us? 
Everybody likes to do more. But you have fewer dollars. So how 
are you going to do it?
    Ms. Darcy. Mr. Chairman, we are going to have to do the 
best we can with the budget that we have been presented. We 
have, as the General said, a number of ongoing projects. We 
will be able to complete some projects with this funding level. 
But a lot of our infrastructure is old. We need to come up with 
a way to recapitalize that infrastructure, not only our locks 
and dams, but the rest of our infrastructure, within our 
mission.
    We are looking forward to working with the Congress on both 
the Inland Waterways Trust Fund in an overall recapitalization 
strategy for infrastructure that is more than 50 years old.
    Senator Baucus. Let's just look at Harbor Maintenance, for 
example. It is my understanding, frankly, that you estimate 
that full channel dimensions at the Nation's busiest 59 ports 
are available at less than 35 percent of the time. As you know, 
you proposed to spend $758 million when the fund carries a $6 
billion surplus. I sure am interested in doing something to 
make better use of the asset balance. What can you tell me? 
What do you intend to do? What would those expenditures be? You 
say you have proposed changes. But you haven't indicated what 
they are.
    Ms. Darcy. Senator, within the Administration, both the 
Office of Management and Budget and Department of 
Transportation and other Federal agencies are developing 
exactly what those proposals would be. The goal is to use the 
Harbor Maintenance Trust Fund for the Nation's ports, in 
addition to the navigation needs. So whatever the other needs 
within the agencies, whether it is homeland security for 
example, we are trying to develop a proposal for what it is 
those additional needs and those additional dollars would be 
spent on.
    Senator Baucus. Also the same question, somewhat applied to 
the Inland Waterways Trust Fund. You propose to spend about 
$166 million for 12,000 miles of rivers and channels. Of that 
$166 million, only $77 million would come from the Trust Fund. 
You talk about other fees, maybe you are changing the 20 cent 
per gallon diesel fuel. I will be totally candid. This reminds 
me of the Administration's proposal on the Highway Trust Fund. 
Basically proposing $556 billion in highways, roads, bridges 
and so forth, but no proposal how to pay for it. It was a 
vague, vague promise.
    If the President doesn't lead, if the President and 
Administration don't make specific proposals, I suggest that 
not much is going to happen. Not much is going to happen. The 
President must lead. The Administration is not leading.
    I am very concerned. Because if you wait for Congress, we 
are unfortunately deadlocked, we are going to cut budgets. I 
just suggest if you have some ideas that you want to pursue, 
that you, the Administration had better come up with something 
pretty fast. Pretty fast. I just see this trend, this trend 
line. You make vague proposals, but nothing to back it up. So 
where is the beef?
    I see words, not deeds. I just urge you, quickly, because 
if you wait for us, I am concerned. I am concerned because I 
haven't heard from you, that is, the Administration. So when 
are we going to hear from you?
    Ms. Darcy. I couldn't give you a date right now, Mr. 
Chairman, but we are in conversations within the Administration 
to come up with a proposal, and soon. Because as you have 
noted, the revenues are dwindling within the Inland Waterways 
Trust Fund. That is a major concern, because that part of our 
navigation system is aging and is in dire need of repair.
    Senator Baucus. It is infrastructure generally in this 
country. It is highways, it is transportation, it is harbor 
Maintenance, it is inland. This country is in a world of hurt. 
That is why Presidents run for these jobs. The proposals go 
along with the territory. If you are going to make grand 
statements, you have an obligation to back them up. I am just 
urging you in your deliberations to fight hard to get 
proposals. Tell them, I don't know if I can speak for the 
members of this committee, but speaking for one member of this 
committee, you can say, they are not happy. You had better come 
up with something quickly, it is going to get worse. Time is 
running out.
    Ms. Darcy. Yes, sir.
    Senator Baucus. Thank you.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman. I certainly echo 
your words.
    As I said, I want to turn to some very important Louisiana-
specific issues that were in my recent letter. The first is 
Morganza to the Gulf. That is an absolutely vital project that 
has been lingering and delayed for decades now.
    Most recently, this came up between us during the General 
Walsh confirmation process. At the end of those discussions, 
both of you gave me a specific, in fact a written commitment, 
to finish the Morganza PAC report by its scheduled date of 
December 2012, and if there was any way to accelerate that. I 
accepted that specific commitment.
    Instead, what has happened since General Walsh's 
confirmation is that the Corps included zero funding in the 
budget proposal to do that study while it initiated four new 
start studies. More recently, the Corps announced that all of 
that work would stop at the end of the fiscal year. So that 
commitment, finishing the PAC report by December 2012, 
apparently is not going to be met.
    How is that keeping the specific commitment that was made 
to me during those discussions?
    Ms. Darcy. Senator Vitter, we are going to make every 
effort to complete that post-authorization change report by 
December 2012. We will be looking for other funds.
    Senator Vitter. OK. Just to be clear, you all did announce 
that that work would stop dead in its tracks at the end of the 
fiscal year, that it would not be completed. Are you telling me 
that is no longer true?
    Ms. Darcy. That is not correct, sir.
    Senator Vitter. OK. Well, that was announced. So if this is 
the announcement of a reversal of that, I applaud it.
    Second issue is the Louisiana Coastal Protection and 
Restoration report. Coming out of Katrina, the Federal 
taxpayer, through the Corps, committed to build a true 100-year 
level of protection, what we thought was there before but 
wasn't. That is what we are trying to complete by June 1.
    But then the taxpayer, through the Corps, also committed to 
move forward to higher levels of protection. Specifically, that 
was going to be through the LACPR report. Through congressional 
language, you were mandated in this report, which is now this 
document, to produce specific project recommendations. Specific 
project recommendations. Then it also said the Secretary shall 
expedite completion of the reports on those recommendations and 
proceed to pre-construction engineering and design.
    Instead, we got this thick, beautifully bound, nice cover 
report for $20 million. It doesn't contain a single specific 
project recommendation. Twenty million dollars, multiple years, 
not a single project recommendation. That was wording in the 
act of Congress. Why not?
    Ms. Darcy. Senator Vitter, I believe that the legislation 
asked for specific recommendations to the maximum extent 
practicable. We have a number of alternatives within that 
report. We have not made specific recommendations for those. 
One of the recommendations in the report, however, was to work 
with the State of Louisiana to come up with what those 
alternatives and priorities should be.
    Senator Vitter. So when is there going to be a single, a 
first specific project recommendation?
    Ms. Darcy. I can't give you that answer, sir. I don't know.
    Senator Vitter. OK. Let me suggest, for $20 million, we got 
a doorstop. This is not moving a higher level of protection 
forward one inch. Not one inch.
    It is clear to me that we are never going to get a specific 
project recommendation out of it. That was the language that we 
used in the act of Congress. We even said then, you take that 
and you move on to engineering and design.
    OK, 100-year level of protection. June 1, we are all 
working toward that deadline. I am very, very glad that we are 
going to meet that deadline in some sense, and I thank you 
again for the Corps' work. However, as you know, there are 
multiple aspects of the system that are being built in a 
temporary way to meet the June 1 deadline. There are multiple 
structures that you have termed temporary, not permanent.
    So my question is, when will all that temporary stuff be 
made permanent? No. 2, do you have the funds already to make 
all the temporary stuff permanent? Because we are spending on 
the order of $150 million on temporary stuff that we are going 
to have to tear up to make permanent.
    Ms. Darcy. Senator, we do have sufficient funds to meet the 
100-year, protection both the permanent as well as the 
temporary measures within the existing funding that we have 
($14 billion). I think the date is August, when the permanent 
measures will be complete. We will be in a position by the end 
of this calendar year to be able to meet the accreditation for 
the system.
    Senator Vitter. Are you saying the permanent will be 
complete by the end of this calendar year? Because I don't 
think that is the case.
    General Van Antwerp. Senator, there are some features, like 
the permanent pumps for example where the schedule goes out 
after that. A lot of these temporary facilities, there are 
Hesco Barriers across the road, there are skid-mounted pumps. 
In one case, we have the permanent pumps, but to get the June 1 
date, we are leasing some pumps and then we will turn those 
back in when we put the permanent pumps in. We actually have 
them on site.
    All this is scheduled, and we would be glad to come and lay 
out the schedule for each one of those. We know every one of 
those temporary measures and when it is going to go permanent.
    Senator Vitter. I don't want to take up more time here, but 
could you give me a written schedule, where any item that is 
temporary will be made permanent?
    General Van Antwerp. Yes.
    Senator Vitter. Next to that time line, the funding source, 
which you say you have in hand already, to get that done.
    Ms. Darcy. We can do that.
    General Van Antwerp. We have sufficient funds to do it, and 
we can give you that schedule, with each one of those temporary 
places outlined.
    Senator Vitter. Thank you. I have one more item, but why 
don't we go on to other members and I will come back.
    Senator Baucus. Yes, we probably should.
    Senator Inhofe.
    Senator Inhofe. Let me mention a couple of issues that we 
talked about before, but I think it is significant. What I am 
concerned with here also applies in a lot of other areas. We 
authorized, actually, this Red River chloride project way back 
in the 1960s. Then in the 2007 bill, which you were here and 
familiar with at that time, it was authorized to continue the 
work. It would have actually been all at Federal expense.
    The problem we are having right now, and this is always a 
frustration, we are sitting around waiting until, the planning 
can't be completed until 2016. Yet, just less than 30 miles 
away, down in Texas, right across the Red River, we already 
have a project very similar to this. The planning would be 
about the same, the environmental impact studies and all of 
that. I am going to be asking if we could have that as part of 
the consideration so we get this thing moving. It is something 
we have been working on since the 1960s. Maybe, General, do you 
have a memory of this particular project?
    General Van Antwerp. Senator, I don't have a good memory on 
this one. But I could get back with you on that.
    Senator Inhofe. Well, yes, because here is the problem. If 
the planning won't even be done until 2016, there is no reason 
for that, because it is the same, essentially the same 
planning. In fact, I have another on the next issue, a very 
similar thing. It seems to me, as we look at things like this, 
and I look at it as a citizen would look at it, that we have 
something that is going to be done some day, it has been 
authorized, it is all agreed upon. Yet there is always some 
obstacle that holds it up. In this case, it is the planning, 
but I contend it would be the same planning as has already 
taken place down in Texas.
    So the only request I have is, I would like to have you 
look at it carefully and see if, if because the planning has 
taken place, if this could shorten that timeframe so that we 
could get started on the project.
    Then the other thing that I know you are familiar with, 
because we talked about this in my office, is we have been 
pretty successful, I think I mentioned this in the opening 
statement, I think Georgia and Oklahoma were the most 
successful in putting these demonstration projects, lake 
projects to work.
    The interesting thing about this is, everyone up here is 
concerned, all they talk about is money and the cost and the 
fact that we don't have the money. These don't cost any money. 
These are demonstration projects that were there because they 
don't cost money, and it induces the private sector to venture 
the capital and to get involved in these. The one in northern 
Oklahoma has been very, very successful.
    Now, the project that is in Lake Eufala is one that if we 
could do it the same way we did it in the project up at 
Skiatook, as you and I had talked about in my office, then it 
would be something where you could go ahead with this one 
project and not have to do a lake plan on the entire lake. If 
you did it that way, I can assure you if we had done it that 
way up in Skiatook, it still wouldn't be done today. Now it is 
already done, it is prosperous, employing people, and it is 
developing in the economy, it is a good program.
    So what I would like to get is an idea as to whether or not 
you would use some of the flexibility that we have and apply 
some of the same techniques to that project in Eufala that we 
discussed as we did successfully up in Skiatook, recognizing 
that people paint themselves into a corner sometimes and say, 
well, this can't be done, then you have to cover for somebody 
else. But that seems reasonable to me. Does that sound 
reasonable to you, Madam Secretary?
    Ms. Darcy. It sounds reasonable, Senator.
    Senator Inhofe. I appreciate that. Just one short question. 
Do you think it would be necessary for anyone who is waiting to 
go through with a project to have to hire a lobbyist or an 
attorney in order to get that done?
    Ms. Darcy. No, sir.
    Senator Inhofe. I knew that would be your answer, and I 
agree.
    Last, on the Arkansas River Corridor master plan, we have 
executed the feasibility cost share agreement, which we talked 
about in my opening statement. There are a lot of things that I 
want to ask for the record, but I will just ask this one 
question now. In light of the scarce resources and the 
Continuing Resolution, we don't know how these things are going 
to turn out. But assuming that those resources are unusually 
scarce, how will the Corps determine which projects with 
executed cost share agreements will be supported with those 
resources? Do you have a plan that you can share with us?
    Ms. Darcy. You are talking about the rest of this fiscal 
year, sir?
    Senator Inhofe. Yes.
    Ms. Darcy. Well, depending upon the final appropriation, 
whether it is a Continuing Resolution through the year, based 
on 2010 levels----
    Senator Inhofe. I suspect strongly, Madam Secretary, it is 
not going to be adequate. So you still have to prioritize.
    Ms. Darcy. We are going to have to prioritize. If we get a 
Continuing Resolution through the rest of this fiscal year, we 
will develop a work plan based on what was in 2010.
    Senator Inhofe. On what criteria you would use. Then you 
could perhaps share that with us during the development of that 
criteria.
    Ms. Darcy. Yes. In the past, it has been a 30-day 
turnaround time for a work plan that is approved.
    Senator Inhofe. Yes. The last question, what do you like 
better, that side of the bench or this side?
    [Laughter.]
    Senator Inhofe. I think I know. Thank you very much.
    Senator Baucus. You bet.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. Let me thank both 
of our witnesses.
    It is quite clear that in this budget climate, we are not 
going to have the resources to be able to do all that we need 
to do. I thank you for the way that you have prioritized. I 
looked at the President's budget, and obviously I would have 
liked to see more in it. But I thought that the priorities, the 
way that you went about it, was the way that we need to go 
about making these tough decisions. So I thank you for that.
    I am going to talk about one or two projects in Maryland. 
But I want to talk first about a success that we have had with 
Poplar Island. You have been there, you understand this. But at 
the time, it was rather controversial, because we were taking 
an important site for dealing with dredged material that dealt 
with keeping channels open, and we combined that with a 
priority ecosystem project. When you do the cost benefit 
analysis, that can become a problem.
    So I guess my question to you is, what steps are you taking 
to make it so that we can do these types of projects in the 
future, where you are combining two types of priorities, one 
ecosystem restoration, the other to deal with maintaining 
channels opened by dredge sites?
    Ms. Darcy. Senator, one of the things that we are in the 
process of doing is revising what is called the Principles and 
Guidelines, which are the rules that we follow in order to 
determine what is in the Federal interest and determining what 
the investment should be in a water resources project. We are 
modernizing those. They were implemented in 1983. So we, along 
with the other Federal agencies, are modernizing those. We hope 
to have those developed by June of this year.
    What they will do is allow us to look at other benefits 
from water resources projects, not just the National Economic 
Development benefits, but in addition, what the environmental 
benefit is, what the social impact of that project would be, 
and have these types of consideration be more on an equal 
footing as opposed to just the economic driver in the past.
    Senator Cardin. For the benefit of my colleagues, Poplar 
Island was an island that at one time was inhabited that had 
just about disappeared within the Chesapeake Bay. The Corps 
restored that island using dredged material, using it as a 
dredge site, which was very important to keep the channel open, 
probably the major dredge site keeping the Port of Baltimore 
open. It restored an ecosystem that is now the pride of the 
community. It is an incredible site, and I invite you all to 
visit. It is not too far away.
    We now have a second location, as you know, the Mid-Bay 
areas. We are making progress in moving forward with that 
particular program, James and Barren Islands. My question to 
you is that, that has gone through an exhaustive study, it has 
gotten the Chief's Report, things are moving forward in a very 
progressive way. There is funding in order to move forward with 
that site.
    However, it does not have congressional authorization at 
this point. As you know, we are going through some different 
views as to how Congress will authorize projects in the future.
    My question to you, is the Administration prepared to ask 
Congress to authorize the Mid-Bay project so that we can stay 
on track to keep that moving forward?
    Ms. Darcy. Senator Cardin, the Mid-Bay Island project is 
still within agency review within the Administration. So as you 
said, there is a Chief's Report, but that Chief's Report is 
still undergoing Administration review.
    Senator Cardin. What is the time schedule on that?
    Ms. Darcy. I wish I could give you a date, Senator, but I 
am working on it.
    Senator Cardin. Here is a challenge, and I understand you 
have a lot of things that need to be done. The challenge is 
that if we are all in agreement that this project needs to move 
forward, in the appropriate priority order, I understand the 
different priorities, but we need to stay on schedule in order 
for dredged material to have a place in a way that not only 
keeps our channels open but also deals with the ecosystem 
restorations. If we run into a situation where you are blocked 
and you want to move forward because you don't have 
congressional authorization, and we can't move until you move 
because of our new rules, we are going to have a problem.
    So I just urge you to understand the new environment in 
which we are operating and give us a little bit of room, and a 
little bit of flexibility. If you need us to act, ask us to 
act, so that we are not blocked in moving forward on what we 
think is a very important project.
    One last point, and that is on your analysis, I thank you 
for all the help you have done in the Port of Baltimore. I can 
tell you chapter and verse of what you have done. But when we 
get to our rural ports, such as Salisbury, the cost analysis 
sometimes doesn't work the same way, even though the port of 
Salisbury is vital to the rural part of our State. We just urge 
you, as you go through the new way of doing these analyses, to 
understand the importance of these ports, particularly in rural 
areas, to the economic strength of that community. Salisbury is 
a case in point, critically important to the people of the 
Eastern Shore.
    Thank you, Mr. Chairman.
    Senator Baucus. Senator Barrasso, you are next, and then 
Senator Whitehouse after that. I have to step out for a few 
minutes.
    Senator Barrasso. Thank you, Mr. Chairman.
    We have been debating in Congress the scope of this 
Administration's attempt to regulate climate change using what 
I feel is a back door method toward cap and tax policies, and 
trying to do it through regulations, where legislation could 
not pass this body. I have introduced legislation that would 
stop such policies across all agencies. I have highlighted that 
climate change regulations are being pursued way beyond the 
Clean Air Act at the EPA.
    I took note of a recent January 2011 report issued by the 
Bureau of Reclamation and the Army Corps of Engineers. The 
report is entitled Addressing Climate Change in Long-Term Water 
Resources Planning and Management. The report says, ``The 
Bureau of Reclamation and the United States Army Corps of 
Engineers recognize that there is a critical need to begin 
incorporate climate change science into the design, 
construction and operations of our water resources management 
infrastructure.'' I will say it again. ``The Bureau of 
Reclamation and the United States Army Corps of Engineers 
recognize that there is a critical need to begin incorporate 
climate change science into the design, construction and 
operations of our water resources management infrastructure.''
    I would ask both of you, is that a statement you agree 
with, don't agree with, and what are your positions on that?
    Ms. Darcy. Yes, sir, I agree with that. We are currently 
looking at adapting our projects to incorporate climate change, 
things like sea level rise, increased temperature of waters, to 
consider those when making project decisions and design 
decisions.
    Senator Barrasso. General?
    General Van Antwerp. I agree with that statement, Senator.
    Senator Barrasso. Then what science are you using, General?
    General Van Antwerp. Some is data measured science. Other 
is prediction based on the actual temperatures, for example, 
whether we get more snow melt, what is the effect on our 
systems. We are also looking at the Everglades and the Florida 
Keys, for instance, where we have measured sea level rise over 
time, and what would happen if we continue on that trend line. 
We look at the worst case, we look at the current case if you 
just extrapolate it out, and then we look at a lesser case. We 
try to predict and do what is appropriate based on those 
scenarios.
    Senator Barrasso. So you are going to use taxpayer dollars 
in making decisions on how to spend those dollars in the design 
and construction of, in terms of infrastructure. My question 
is, what statute if any do you believe authorizes the U.S. Army 
Corps to embed climate change into your mission?
    General Van Antwerp. From our standpoint, if you design a 
project and it is supposed to have a certain project life, then 
you have to account for what happens during the entire lifetime 
of that project. For instance, in New Orleans, we are building 
some of the bases of the levees wider so that you could come 
back later and build them higher, because we know we are going 
to get some subsidence; we know we are going to have some 
climate change affecting them.
    If a levee is designed for a 50-year life span, then we 
look at what happens during those 50 years. We feel that this 
is authorized as part of project design.
    Senator Barrasso. Recently I had a chance to visit New 
Orleans, and I can understand how you can predict some of the 
subsidence in the levees. Are you talking about man-made 
climate change or are you talking about just climate change in 
general?
    General Van Antwerp. I don't know if I would draw a real 
distinction of man's contribution. Probably the most easily 
measured right now is sea level rise; we know what sea level 
rise has taken place. So we actually have the data for that. 
But the other is predictive, based on the experts that help 
predict the weather and predict the snow melt and all those 
kinds of things, what is happening to the glaciers, all that is 
part of that scientific study.
    Senator Barrasso. Over what period of time are you looking 
when you say the predictive value? Are you talking 50-year 
trends as you make decisions?
    General Van Antwerp. Generally a 50-year trend for a 
project. If you are building a port, for example, if you are 
going to a certain depth of that port, then one of the things 
that it does affect, and we have seen this more and more, is 
dredging. It affects the silting in, because if there is a 
slight sea level rise, it affects how far the saltwater 
intrusion goes up in the mouth of the river. All these are 
things that are measurable.
    Senator Barrasso. Thank you, General.
    Senator Whitehouse. Welcome. In Rhode Island a year ago, we 
had the worst flooding that anyone can remember. We had 100-
year flood limits, overwhelmed, all over the State. We had 500-
year flood limits hit in a number of places. Twenty-five 
thousand plus homes were flooded, nearly 3,500 businesses. I 
can remember standing on flooded roads and watching rivers flow 
over bridges that ordinarily went over the river. I watched a 
father and son have to be picked out of a truck that had filled 
up to the windows with rescue folks and boats. In West Warwick, 
there were families that had to be taken out of the upper story 
windows of their homes by jet ski and boat. It was a really big 
thing.
    It was particularly traumatic economically, because Rhode 
Island's history goes back to the mills that were powered by 
the rivers, all the way back to the famous Slater Mill of 
Pawtucket. So the job loss and the interruption economically 
was very profound. Now we are trying to recover from it. We are 
working with you all, and I just wanted to try to see where we 
are on some things.
    Ms. Darcy, you state that there is sufficient carryover 
funding from prior years to finance the Section 205 Continuing 
Authorities program for flood damage reduction for Fiscal Year 
2012. Exactly how much funding is currently available for 
Section 205 projects, and does this funding level allow for any 
new projects to be initiated?
    Ms. Darcy. What we have done in this budget is taken $23 
million from our carryover for the Continuing Authorities 
Programs for four of the specific programs, and put them into 
five of the other programs. I can get you, hopefully before the 
hearing is over, the exact number of what would be in that 
particular Continuing Authorities Program.
    Senator Whitehouse. It was a pretty bad flooding year in a 
lot of areas. Presumably there is going to be an influx of 
Section 205 applications. Are you taking that into 
consideration? Or is there a distinct possibility that the new 
projects coming in will overwhelm the funding that you have the 
ability to carry forward?
    Ms. Darcy. Senator, I think we will have to look at the 
funding level we do have in the CAP program and will have to 
consider each incoming request individually.
    Senator Whitehouse. The flooding was so significant, and 
the evidence that climate changes are in fact creating far more 
heavy precipitation events, particularly in the northeast so 
abundant now that it appears that the only sensible thing to do 
is to reconsider some of the 100-year flood, 500-year flood 
planning and rethink what is really likely to be faced, by 
particularly these urban communities with rivers flowing 
through them, and their vulnerability to flooding.
    As we look at those, these studies are particularly 
significant. I am hoping that you can assure me that you will 
continue to help Rhode Island assess these infrastructure 
weaknesses and assess the vulnerability of these rivers to 
these flooding events, that it will continue to be a priority 
for you.
    Ms. Darcy. Yes, sir. I can also answer your earlier 
questions. We have sufficient funds for all Section 205 
projects already in design and construction.
    Senator Whitehouse. OK. But does that leave you any margin 
if other ones come down the pike for you? Or does that exhaust 
your 205 capacity?
    Ms. Darcy. I am not certain.
    Senator Whitehouse. Can you take that as a question for the 
record?
    Ms. Darcy. Yes, sir.
    Senator Whitehouse. We just want to know how bad the 
situation is in terms of the likelihood of what we need getting 
funded.
    One of the biggest problems we have is that we have dams 
that have been around a long time. They are in heavily 
populated areas, heavy residential population, also heavy 
commercial activity. We have 95 high hazard dams in Rhode 
Island. Obviously, we need your help with them. Can you tell me 
how you prioritize dam repair funding in your budget proposal 
with respect to high hazard dams in high populated areas?
    Ms. Darcy. Senator, we have a dam safety program within the 
Army Corps of Engineers that assesses the dam safety 
requirements for all of those which are Federal dams. We call 
Dam Safety Action Classification (DSAC) 1 the dams that are 
most highly vulnerable and the highest risk to public safety. 
Those dams are the ones that are at the top of our priority 
list for funding. We are funding all of our ongoing DSAC 1 dams 
in this budget. But again, these are Federal dams, they are not 
private dams.
    Senator Whitehouse. OK, Mr. Chairman, thank you very much 
for letting me go over a few moments. If I could just add one 
point?
    Senator Baucus. Sure.
    Senator Whitehouse. On the question of whether the Army 
Corps should be paying attention to the factual observations 
and the scientific trends related to climate change, or whether 
they should be listening to the political messages coming from 
this building, I think that the story of King Canute settles 
the question of whether political orders or the natural order 
will ultimately prevail. I am pleased that you are staying with 
the facts and the science and the natural order. Because I 
think that is going to be the real effect out in the world.
    Thank you, Chairman.
    Senator Baucus. Thank you.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. We appreciate our 
witnesses. Thank you for being here, and we do appreciate your 
hard work in sorting through these problems.
    I would just like to, I think with several others today, 
just go on record as saying that we really do need some 
detailed planning regarding the Inland Waterways Trust Fund. 
That is something that I think you all are going to have to 
lead on. I think the President is going to have to lead on. But 
it is something that needs to be done.
    We hear a lot about the completion of the Panama Canal, as 
it is retrofitted, and people are telling us, it is going to 
have, potentially, could have a tremendous impact, if we are 
ready for it as things are done a little bit differently with 
our shipping lines. So again, I would really encourage you to 
do all that you can do to help us.
    I will let you respond to that in a second.
    The other thing is, I was wondering, we have an earmark 
moratorium right now. I think all of us agree that the teapot 
museums, things like that, in the climate that we are in now, 
we have to be so frugal with the taxpayers' money. I was 
wondering, in the public they understand that in getting ready 
for the Panama Canal construction that we need 50-foot harbors 
here and there to make room for these gigantic ships that come 
through.
    I was wondering what kind of problems you are encountering 
in the sense that we can't authorize a lot of that stuff right 
now. If you are in the middle of projects now that you have put 
money toward, and yet you need more authorization to complete 
the project, but we really don't have the ability now to 
provide the authorization. Can you comment on that for us?
    Ms. Darcy. Senator, regarding the post-Panamax vessels that 
are going to be coming this way, we do have several harbors 
that are currently dredged to 50 feet, which can accommodate a 
post-Panamax vessel. We have several studies underway for the 
deepening of other ports around the country to a 50-foot depth.
    Senator Boozman. I don't mean to interrupt, but do we have 
that on both the east coast and the west coast?
    Ms. Darcy. Yes, sir.
    Senator Boozman. Very good.
    Ms. Darcy. Baltimore and Norfolk on the east coast are 
currently at 50 feet. New York-New Jersey will be going to 50 
feet. We have 50 feet at Oakland and 50 feet at L.A. Long Beach 
currently. We have some ports on the west coast, Tacoma, WA for 
example, which is naturally at 51 feet.
    Senator Boozman. In regard to projects that you need more 
authorization for, are you having that kind of problem without 
the ability of Congress to authorize the funds toward the 
projects? Or do you see that coming in the future?
    Ms. Darcy. I think it is coming in the future. Currently we 
have a number of studies underway to determine whether an 
additional depth is warranted, both economically and 
financially for the Federal investment.
    Senator Boozman. Well, not only depth, but I am just 
talking about projects in general that are going on that the 
Corps has a hand in.
    General Van Antwerp. If I might just add, right now we have 
six projects that are authorized but not constructed, 
authorized to go to the 50-foot, but not constructed to that 
level yet.
    Senator Boozman. But again, projects in general that the 
Corps is doing, whether it is deepening a channel or some other 
thing that you are in the middle of, are there cases now where 
you are going to need additional authorization to complete the 
project? Is that going to be a problem in the future?
    Ms. Darcy. Senator, it could be a problem in the future. 
But currently, within the funds that we have, what we have to 
do is prioritize within the authorized projects that we have, 
both within the ports program as well as within the Inland 
Waterways program. So whatever depth is currently authorized, 
we will prioritize within our criteria for determining whether 
it is a budgetable item or not.
    Senator Boozman. Thank you. Again, I very much would 
appreciate, like I said, your leadership, the President's 
leadership and the committee's leadership. I know I can speak 
for all of us, we are very willing to try and figure out the 
Inland Waterways Trust Fund. But we are going to need some help 
in that regard.
    Thank you very much. Again, thanks for all you do.
    Senator Baucus. Thank you, Senator.
    I would like to ask you, Secretary Darcy, about some 
Montana issues. One is certification of levees. We have talked 
about this before, along with FEMA. A very good meeting a 
couple or 3 months ago. I thought it was good, people want to 
work together.
    But the upshot of it is that there are a good number of 
levees in our State that can't be certified. FEMA is redrawing 
flood plain maps. Some of these, it is going to turn out, it is 
clear that the levee is not adequate, which is going to force 
insurance rates to go up very significantly.
    The Corps, until recently, used to pay for those 
certifications. But apparently it does not, my understanding is 
that Federal waterways along the Mississippi, not in States 
like Montana, or Missouri. That is a problem.
    We talked a bit about floods. We are going to talk more 
about floods. But it doesn't rain much west of the 100th 
meridian, ordinarily. The population density is very scarce. 
Our population in Montana is six people per square mile. I 
think the most populous State might be New Jersey, with 1,000. 
It rains in New Jersey. It rains in Washington, DC. It does not 
rain in the west. At least in the high plains States. It 
doesn't rain. Our annual rainfall is maybe at 13 inches, 14 
inches, something like that. That includes snow. Ordinarily. 
Although this last year, we had a little more snow, so we could 
have floods.
    But my point is, ordinarily it doesn't rain very much, 
which means we have very low population densities. We are just 
different from other parts of the country. We don't have the 
population, don't have the resources to support a lot of 
projects that other communities can support. There would be no 
interstate highway through Montana if we didn't have an 
interstate highway system, where Americans paid diesel and 
gasoline taxes and we distribute dollars back to the States for 
highway programs. We couldn't afford it. We have the highest 
State gasoline taxes already in the Nation.
    People would drive across the country, they would get to 
the high plains States, and they would stop, there wouldn't be 
any interstate any more. We can't handle it. We are just 
different in the west, because it does not rain.
    So these small communities are strapped. They are really 
strapped. I would guess on some kind of a, figure out a 
formula, on a population resource base formula of some kind, 
that these small Montana communities, like Mile City, MT, for 
example, they can't afford it.
    So I am asking you, don't you think this is a fairly high 
priority? That is, to get certification or pay for the 
certification of some of these smaller communities that 
otherwise can't afford it? Because you did do that up until 
2008, then stopped, leaving them--no pun--high and dry. What 
can you do?
    Ms. Darcy. Senator, you are correct, we did certify and 
then in 2008, in many cases, we stopped certifying. Currently 
we certify levees that we build and also levees that we have 
built. The only time we can certify non-Federal levees is if a 
local entity provides the funding and it is determined that the 
Corps of Engineers is uniquely qualified to do that 
certification, as a result of the Thomas Amendment.
    But the rural communities are in a situation, as you know 
only too well, of being financially strapped in order to do 
this certification. But the determination was made that the 
certifications that we were doing were just not in the 
budgetable part of our levee safety program.
    Senator Baucus. That determination was made by whom?
    Ms. Darcy. It was made in 2008.
    Senator Baucus. By whom?
    Ms. Darcy. By, I believe, the Secretary at the time.
    Senator Baucus. Who was that?
    Ms. Darcy. In 2008 it would have been Mr. Woodley.
    Senator Baucus. Who is Secretary now?
    Ms. Darcy. That would be me.
    Senator Baucus. Do you have authority to modify that 
determination?
    Ms. Darcy. Within our budget, yes, sir.
    Senator Baucus. Do you have authority to change priorities 
around a little bit?
    Ms. Darcy. A little bit.
    Senator Baucus. Do you think these certifications, we are 
not talking about huge, big projects here. We are just talking 
about certifications. Don't you think that might be a good 
idea?
    Ms. Darcy. I think it is something that I will look into 
immediately, sir.
    Senator Baucus. Thank you very much. Because it is a 
problem. It is a real problem.
    Ms. Darcy. It is a problem around the country, sir.
    Senator Baucus. Especially in some of our communities. It 
is really tough.
    Next subject, very briefly, I am going to be very brief 
here. The Authorized Purposes Study, has money been 
appropriated for that?
    Ms. Darcy. Yes.
    Senator Baucus. Then there is an amendment, I guess over in 
the other body, to not pay for that, it's on the Continuing 
Resolution. I presume the Corps does not favor that amendment 
to strike the continued funds for that authorized study?
    Ms. Darcy. The President's Budget does not contain any 
funding for that study.
    Senator Baucus. No funding?
    Ms. Darcy. No.
    Senator Baucus. Why are you stopping midstream?
    Ms. Darcy. The Administration never budgeted for that 
study. It has always been a congressional action.
    Senator Baucus. Aren't you about halfway through it? Aren't 
you conducing the study? Congress, my gosh, if we are doing a 
study, it is a waste of money to stop midway.
    Ms. Darcy. We have been conducting the study and doing a 
lot of surveys that have been required by the legislation. But 
it is not included in this year's budget.
    Senator Baucus. Don't you want to know the results of a 
study so you are more efficiently spending your dollars? This 
is huge. Because it is my understanding that this study could 
very well result in different priorities for the Corps on this 
system, because a study would show that it is more efficient, 
makes more sense to spend dollars in some areas rather than 
other areas. I presume, the whole subtext of the whole 
afternoon is you have to spend dollars wisely, because we don't 
have as many.
    Don't you think you want to learn as much as you can, to 
spend dollars as wisely as you can, ordinarily, as a general 
principle?
    Ms. Darcy. Yes, Senator. However, within this limited 
budget, this study in particular did not----
    Senator Baucus. Don't you think you would learn a lot more 
if this study were completed?
    Ms. Darcy. We probably would.
    Senator Baucus. You could make decisions with respect to 
priorities much more accurately?
    Ms. Darcy. I think the study would help us to inform future 
decisions, yes.
    Senator Baucus. Especially when people think that the 
results of that study will show quite a significant difference, 
a different result compared with current Corps practices?
    Ms. Darcy. I think there is probably some validity to that. 
However, I think others would argue----
    Senator Baucus. Do you have the authority to spend dollars 
to complete the study, Secretary?
    Ms. Darcy. I currently don't have it in my budget.
    Senator Baucus. But do you have authority to change your 
budget, so you could have, dollars could be spent to complete 
the study? Do you have that authority?
    Ms. Darcy. The authority to prioritize----
    Senator Baucus. Do you have the authority to shift funds, 
given X number of dollars, given that X number of dollars, 
shift funds so that the study would be completed? Don't forget, 
we are not talking about a new study.
    Ms. Darcy. Right.
    Senator Baucus. We are talking about completing a current 
study. I think I heard you say you had been conducting parts of 
the study up to this point.
    Ms. Darcy. Yes, with congressional adds.
    Senator Baucus. That is irrelevant. The point is, you have 
been conducting the study.
    Ms. Darcy. Yes, we have been conducting the study.
    Senator Baucus. I am not exploring who provided the money 
or didn't provide the money. I am saying, the money has been 
provided.
    Ms. Darcy. Yes.
    Senator Baucus. You have been conducting the study?
    Ms. Darcy. Yes.
    Senator Baucus. You did agree you would probably be better 
off if you knew the results of the study, even though it is not 
in your budget?
    Ms. Darcy. Correct.
    Senator Baucus. You also have authority to find dollars for 
that study?
    Ms. Darcy. I think, and I will have to check on this. I 
think it would be viewed as a new start. Because it has never 
been in the budget before.
    Senator Baucus. I thought I heard the General say they have 
two new starts.
    Ms. Darcy. There are new starts in this budget.
    Senator Baucus. Well, there are four, according to Senator 
Vitter.
    Ms. Darcy. Yes, there are.
    Senator Baucus. Well, if there are four new starts, that is 
not a defensible answer. To say it is not a new start is not a 
defensible answer. It is not a new start, it is ongoing. We are 
not going to belabor the point. Listening to you, I think you 
basically agree with everything I have said, except you just 
haven't got the money for it.
    Ms. Darcy. Correct.
    Senator Baucus. I am saying that you probably could get the 
money for it if that were your decision. I am suggesting that 
you revisit that one, too. Come on. This is not rocket science. 
You want to know the results of the study so you know how to 
better spend your dollars, I presume.
    Ms. Darcy. Yes.
    Senator Baucus. I am way over my time. St. Mary Diversion, 
project, you know about that, St. Mary Diversion, there is 
money for it, it is authorized.
    Ms. Darcy. Yes.
    Senator Baucus. I think $500,000 appropriations spent on it 
to get this thing going. It is the same. These poor people 
cannot begin to pay for keeping the St. Mary Diversion going. 
It is falling apart. They haven't got resources. They can't pay 
for it. They need help. I would go back and ask you to look at 
that one, too.
    Ms. Darcy. Yes, sir.
    Senator Baucus. We are a State where it doesn't rain. We 
are spread out. We don't have big factories, we don't have big 
seaports. We don't have big airports. We are all spread out 
because it just doesn't rain in Montana. We are different.
    Thank you. Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    By the way, I think what you need to finish your study is 
about half of this book.
    [Laughter.]
    Senator Vitter. I would love to give it to you if you could 
go to some bank teller and cash it in. Unfortunately, it is 
spent, in my opinion, to little or no effect.
    A couple more Louisiana points that I was on. Several 
parishes in southeast Louisiana have spent $41 million to 
storm-proof interior pump stations. That is acknowledged to be 
fully reimbursable from the Feds through the Corps. We have 
multiple documents acknowledging that by the Corps. There are 
even documents with a plan to pay immediately for at least $25 
million of those funds identified. But the Corps is not doing 
that to date.
    Forty one million to these local entities is a lot of 
money. They are out. They have fronted that money. That is a 
big deal to them. When will they get reimbursed?
    Ms. Darcy. Senator, the reimbursement has to come from 
appropriated funds. We don't have the appropriated funds to 
reimburse them.
    Senator Vitter. In your budget, aren't you asking for 
reprogramming well above that figure?
    Ms. Darcy. In the budget, I believe we are asking for 
transfer authority, not necessarily reprogramming authority. I 
will double check that. It is both.
    Senator Vitter. Under either category, you have numbers 
well above that $41 million figure that you are trying to move 
for other purposes. So why can't you use some of that money to 
repay these locals who are out that amount of money, who have 
fronted it on the promise of reimbursement, and now there is no 
reimbursement?
    Ms. Darcy. I will have to check. I believe the funds for 
transfer as well as the reprogramming are identified for other 
purposes within the larger project. But I can't tell you right 
now what that is. I will ask staff to help me get you that 
answer.
    Senator Vitter. My point is that they fronted this money on 
the clear promise of reimbursement. You all say that is 
correct. You had a plan to reimburse at least most of it. Now 
you have pulled back on that. Meanwhile, you are asking 
permission to move money around within your budget far in 
excess of that amount for other purposes. That seems unfair 
when these locals are out what is to them big dollars in terms 
of their operating budgets.
    Ms. Darcy. I will look into where we are moving that money.
    Senator Vitter. Final issue is dredging in the lower 
Mississippi River. This is the most significant maritime 
navigation channel in the country, in fact, in the western 
hemisphere. So many things flow into the Mississippi, go to the 
lower Mississippi, so much commerce depends on that. In the 
last 3 years we needed $115 million to properly dredge that in 
2008, $181 million in 2009, $118 million in 2010. You are 
budgeting $65 million for this year and you are saying there is 
not going to be any transfer. We are not going to fill in the 
gaps any other way.
    How are we possibly going to not curtail commerce when you 
are budgeting well less than half what we have spent in those 
previous years?
    General Van Antwerp. Senator, I would say first of all, 
future reprogrammings are not ruled out. We are watching the 
status every day. In fact, we are trying to get a third dredge; 
I am sure you know that we received no bids for that third 
dredge contract. We are looking to activate one of the Corps 
dredges.
    But we haven't ruled out reprogramming. We are watching it 
very closely. We have many, many ports and harbors in the 
Nation that aren't at authorized width. We try to get them to 
depth first, but it may mean you can't run two ships side by 
side. We are watching it very closely, and we are watching the 
navigation industry and the buoys as well. It may be that they 
are not at authorized width and depth all of the time. That 
would be the tradeoff. But we are watching it very closely.
    Senator Vitter. Let me applaud your saying that future 
reprogramming is not ruled out. General Walsh has told me 
future reprogramming ain't going to happen. But I am happy you 
outrank him.
    [Laughter.]
    Senator Vitter. Second, we are not shooting for perfection. 
My concern is not that we are going to be short of what is on a 
piece of paper. My concern is that we are going to inhibit 
commerce and basically cost jobs. So if you can please be 
attuned to that, because that is a vital artery.
    General Van Antwerp. I get status reports almost on a daily 
basis. We are watching, is it an inch or whatever.
    Senator Vitter. Thank you.
    Final comment, which goes back to this idea of temporary 
structures, in some cases building to June 1, and you said all 
the money is in hand to make all of that permanent. I obviously 
hope you are right. That wasn't my understanding. Part of what 
I was basing my understanding on is this reprogramming sheet 
from the Corps, which identified future west bank and vicinity 
needs for resilient futures, resilient is the other word for 
permanent, $320 million. That gave me the impression that we 
are basically at least $320 million short.
    So I want to make sure that is not your understanding. You 
think we have in hand what we need?
    General Van Antwerp. Senator, I think we have what we need 
to finish the 100-year permanent facilities.
    Senator Vitter. Well, again, I know I am repeating myself, 
but if you all can followup with every feature that is 
temporary, the time line to make it permanent and where the 
dollars are in hand to get that done, that would be very 
comforting.
    Thank you.
    Senator Baucus. Thank you, Senator.
    Senator Boozman, you are on.
    Senator Boozman. Just very quickly, I notice that you, in 
your budget, you include $50 million, a $40 million increase on 
comprehensive levee safety, the levee safety initiative, which 
is really a big deal in the sense of, in many parts of the 
country. I would just like for you to comment a little bit 
about that and tell us where that is in your priorities and 
things. That is something that, as we understand more about, we 
are starting to realize the impact of the condition of some of 
these levees.
    Ms. Darcy. Thank you, Senator. The levee safety program is 
one of our priorities. What we want to use the money to do is 
get an assessment of the safety of levees throughout the 
country. We currently have 14,000 miles of levees, Corps of 
Engineers Federal levees. But there are 100,000 miles of levees 
in this country that we don't know the condition of, and we 
don't know the safety of them.
    Part of what we are doing is to start out with assessing 
the Federal levees and then look at the levees of other Federal 
agencies, as well, as if we can get the information willingly, 
from private levees. The goal is to be able to get an 
assessment of what the levee safety is to the best extent 
possible throughout the country within that budget.
    General Van Antwerp. Senator, if I might add just a little 
more of the breakdown. About $20 million of that goes to expand 
the database, $25 million to conduct inspections of 125 
federally authorized levees, and then $4 million for the Silver 
Jackets program.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Baucus. Thank you, Senator. Madam Secretary, 
General, what are the most efficient harbors, ports, in the 
United States? Which ones are right up there, which ones are 
you proud of?
    General Van Antwerp. It depends on how you define 
efficient. But if you define that they are self-cleaning and 
don't require dredging and will be at that depth, Tacoma, WA is 
one, L.A. Long Beach is another. They sustain their depth 
through natural forces. So those kinds of ports, we wish they 
were all like that. We have some like Southwest Pass, where we 
need dredges there most of the time.
    Senator Baucus. That is very interesting. But if you define 
it also in terms of volume or tonnage and so forth, then which 
ones? Efficient, not only self-cleaning, but also efficient 
inspectors, loading and unloading and so forth.
    General Van Antwerp. We have 59 harbors that take about 90 
percent of the commerce. The total amount of that is about $1.4 
trillion. So there is a smaller set of the 926, 928 ports and 
harbors in the country.
    We categorize them by high, moderate, and low use harbors. 
In this particular budget, we have cut the funding for low use 
harbors, in half. It was just a matter of priorities, of how we 
had to use those dollars the best we could. So some of that is 
based on tonnage and ton miles. That is how we prioritize.
    We also look at a lot of other factors, such as safety 
factors, are they ports of refuge and things like that around 
the country.
    Senator Baucus. What about other ports in the world, same 
question. Which are self-cleaning, which are most efficient?
    General Van Antwerp. There are a lot of ports that are 
going to be able to take Panamax ships. That is why we have the 
ports in our program, to get to that 50-foot depth in the 
United States. Because that is going to be required if you want 
to take a fully loaded Panamax ship in the future.
    Senator Baucus. That is 50 feet?
    General Van Antwerp. Fifty feet.
    Senator Baucus. So how many ports can handle 50 feet today, 
United States.?
    Ms. Darcy. We have Baltimore, Norfolk, we will shortly have 
New York-New Jersey. Oakland on the west coast, L.A. Long 
Beach, Tacoma, and I think those that are currently at 50. New 
York-New Jersey will be at 50.
    Senator Baucus. What about overseas? Are there some ports 
you look at and say, man, that is sort of the gold standard? 
Are our ports the gold standard? Which ports are the gold 
standard?
    Ms. Darcy. I think some of ours are gold standard, but I 
have been to Singapore, and that is a pretty amazing port.
    Senator Baucus. Have you been to Shanghai?
    Ms. Darcy. I have never been to Shanghai, but I have seen 
Singapore, and that is pretty amazing.
    Senator Baucus. About 3 years ago, I spent some time 
talking to CEOs of major companies, business roundtable is what 
it was. I was concerned about American competitiveness and the 
need for more up to date infrastructure, and how it is more 
difficult now for the United States to respond. This country 
has responded to other crises, Pearl Harbor, the Depression, 
Sputnik. It is kind of hard to see the current globalization 
competitiveness that is affecting our country and what other 
countries are doing. It is just hard to see.
    Anyway, I mention all this for whatever it is worth, we 
were talking in this group informally. One fellow stood up, he 
is the head of a major transportation company. He said, 
Senator, I have seen Sputnik. It is Shanghai Harbor. He is 
scared to death of the efficiency of Shanghai Harbor. I have 
been there, too. I can't speak with authority as to how good it 
is compared to others, but I just am concerned about where we 
are competitively. We have to get our ports and our waterways 
up to snuff. Because clearly, that helps improve efficiency, 
lowers transportation costs and helps lower the cost of doing 
business, American business men and women.
    I know we have a budget that is going the wrong direction 
here. I have been a little bit difficult perhaps in pressing 
you to figure out how we are going to pay for some of this 
stuff. But we are under the gun, our country, in my judgment. 
We had better figure out pretty quickly how we are going to pay 
for upgrades to the most efficient infrastructure in the world, 
so we can compete.
    I tell you, we will project more political strength 
worldwide the more we project economic strength. Part of 
economic strength is just up to date, solid infrastructure. 
There is more to it than that, clearly. But we all travel. I 
travel, I got off a plane 5 or 6 years ago in Chongqing, China. 
Middle of China. I couldn't believe the airport. It was the 
most modern, up to date airport I have ever seen. Interstate 
highway system rivals ours, maybe better. Newer, just as good, 
30 million people, have this big interstate highways system, 
big fancy airport in the middle of China. Let alone all the 
other infrastructure projects built.
    So I am just urging you, we are kind of bring out our 
little pencil and looking at columns and all that, think big. 
Thing big, blue sky, in the envelope, we have to start thinking 
outside the envelope so we start to address these concerns for 
our kids and our grandkids.
    I don't want to sound corny here, but I think all of us 
have a moral obligation, it does sound corny, but I believe it 
strongly, we have a moral obligation, all of us, particularly 
those of us in service, when we leave this place, we leave it 
in as good a shape or better shape than we found it. We are not 
here forever. You are retiring, General. You are going to be 
around a long time, though.
    But I just urge us to start thinking big, what are we going 
to do for our kids and our grandkids. Because if we do that, 
automatically it means it is going to be better for us too.
    I understand that you have to leave. So thanks for your 
attendance. We appreciate it very much. I was a little firm 
with some of the questions I asked you, Ms. Darcy. It is not 
personal.
    Ms. Darcy. I know.
    Senator Baucus. It is just protecting my people and my 
State, because we have some real, real concerns. I know you 
understand that.
    Ms. Darcy. I do.
    Senator Baucus. I know you will take it into very strong 
consideration.
    Ms. Darcy. I will. Thank you, Senator.
    Senator Baucus. Thank you. This hearing is adjourned.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]
    [Additional statement submitted for the record follows:]

      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland

    Madame Chairman:
    Thank you for holding this hearing today. The Army Corps of 
Engineers is an important partner for us in developing and 
managing the water infrastructure of America. In the Chesapeake 
Region, they are also an important ally in ecosystem protection 
efforts.
    The President's budget is inadequate to meet the needs we 
have out there. I think all of us can agree on that. I know 
that in Maryland a number of important projects are not part of 
the President's budget for fiscal year 2012.
    We also all know that in the current budget climate that 
not all needs are going to be addressed. So I want to 
compliment Ms. Darcy and General Van Antwerp for bringing us a 
budget that makes a serious attempt at balancing our needs with 
our resources. I particularly want to thank them for working 
with industry representatives to come up with ideas on how we 
can put more user fees to work in meeting our harbor and inland 
waterway needs.
    The new Principles and Guidance for the Corps developed in 
response to WRDA 2007 should provide a new national water 
policy. The original draft, released in September 2008, did not 
reflect the clear mandate provided by Congress in WRDA 2007. 
The final P&G needs to set forth clear and compulsory policies 
and criteria to guide Federal water project planning. These 
should include clear directives to avoid adverse environmental 
impacts to the maximum extent possible, along with specific 
requirements that ensure compliance. For example, a clear 
requirement to utilize non-structural and restoration 
approaches to solve a water resources problem, where 
practicable, would provide the type of direction needed. Such a 
requirement would produce projects that preserve and restore 
the natural systems so critical for protecting communities from 
floods, droughts, and sea level rise, and for providing vital 
habitat to fish and wildlife. Such policies and criteria should 
take precedence over the use over the old benefit-cost analysis 
used to guide project selection.
    As the National Academy of Sciences has made clear, 
benefit-cost analysis cannot ensure that projects are 
appropriate for Federal investment, comply with Federal law, or 
will meet societal obligations that include protecting public 
safety and the environment. The old cost-benefit analysis 
worked in some cases. For example, it recognized the importance 
of the Port of Baltimore. The Port is an enormous economic 
engine for Maryland with national significance. There are 126 
miles of shipping channels leading to the Port of Baltimore. In 
2008, approximately 47.5 million tons of cargo, including 33.0 
million tons of foreign cargo valued at $45.3 billion, and 
approximately 14.5 million tons of domestic waterborne cargo, 
moved through the Port of Baltimore.
    Among the 360 U.S. ports, Baltimore is ranked No. 1 for 
handling several different commodities including trucks and 
roll-on/roll-off cargo. The Maryland Port Administrations 
estimates that The Port generates 50,700 jobs in Maryland with 
$3.7 billion in wages and salaries. Additionally, there are 
approximately 68,300 related and indirect jobs associated with 
Port activities. The President's budget reflects this economic 
power by including funding for the Port, its channels and its 
primary dredge disposal site at Poplar Island. The Port of 
Baltimore is one of America's greatest ports, supporting an 
incredible array of jobs. But it is not the only port in a 
State that has more miles of shoreline than the entire west 
coast of America.
    Salisbury is a relatively small city and an unexpected 
place for Maryland's second busiest port. Located 30 miles 
inland from the Chesapeake Bay, the port of Salisbury is vital 
to the entire Delmarva Peninsula. Under the old formula, the 
vital nature of this port to an entire region of the country is 
given little importance because the total commercial value of 
the shipments handled at the port cannot rival those of the 
Nation's major ports.
    Farmers need Salisbury to move corn and soybeans to market. 
Shale, sand and aggregates move up and down the Wicomico River, 
supporting thousands of jobs in the construction industry. The 
rural economy of the Eastern Shore is tied to the port, but 
that value is underestimated in a strict cost-benefit analysis. 
Similarly, Maryland is home to scores of other ports, many of 
them tiny operations that support our independent watermen. . 
.the men and women who make their living crabbing or oystering 
the Chesapeake's waters.
    The new P&G policy should require that the nation's water 
resources projects reflect national priorities, encourage 
economic development, and protect the environment by:
    (1) seeking to maximize sustainable economic development;
    (2) seeking to avoid the unwise use of floodplains and 
flood-prone areas and minimizing adverse impacts and 
vulnerabilities where such areas must be used; and
    (3) protecting and restoring the functions of natural 
systems and mitigating any unavoidable damage to those systems.
    That integrated approach to the Corps' budget is exactly 
what we need in an era of shrinking revenues and continuing 
needs.
    I look forward to hearing from today's witnesses about the 
President's budget, about the P&G policies under development 
and about our plans to reauthorize the Water Resources 
Development Act later this year.

                                 <all>

</pre></body></html>
